                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-03653-91




    Combined Assessment Program 

            Review of the 

      Atlanta VA Medical Center 

           Decatur, Georgia 





March 12, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                              CAP Review of the Atlanta VA Medical Center, Decatur, GA



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 ED             emergency department
                 EHR            electronic health record
                 EOC            environment of care
                 EQUiPPED       Enhancing Quality of Prescribing Practices for
                                Elderly Veterans Discharged from the Emergency
                                Department
                 facility       Atlanta VA Medical Center
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 MSIT           Multidisciplinary Safety Inspection Team
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PRC            Peer Review Committee
                 QM             quality management
                 ROM            range of motion
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                         CAP Review of the Atlanta VA Medical Center, Decatur, GA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management.........................................................................................                   9

  Coordination of Care ...............................................................................................            10

  Nurse Staffing .........................................................................................................        11

  Pressure Ulcer Prevention and Management .........................................................                              12

  CLC Resident Independence and Dignity ...............................................................                           14


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. Strategic Analytics for Improvement and Learning ............................................                                17

  C. VISN Director Comments ..................................................................................                    20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              28

  F. Report Distribution .............................................................................................            29

  G. Endnotes ...........................................................................................................         30





VA OIG Office of Healthcare Inspections
                                          CAP Review of the Atlanta VA Medical Center, Decatur, GA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
November 18, 2013.

Review Results: The review covered seven activities.                           We     made     no
recommendations in the following two activities:

 Medication Management

 Coordination of Care

The facility’s reported accomplishments were medication management for elderly
veterans and improved access to dermatology care.

Recommendations: We made recommendations in the following five activities:
Quality Management: Ensure that actions from peer reviews are completed and
reported to the Peer Review Committee and that quarterly summary reports are sent to
the Medical Executive Committee.            Require the Cardiopulmonary Resuscitation
Committee to review each code episode and collect code data. Ensure the Surgical
Work Group meets monthly and documents its review of required performance data
elements and National Surgical Office reports. Require the quality control policy for
scanning to include how to annotate a scanned image to identify that it has been
scanned. Ensure that the Anesthesia Service representative attends Blood Usage
Committee meetings and that the blood/transfusion usage review process includes the
results of proficiency testing, the results of peer reviews when transfusions did not meet
criteria, and the results of inspections by government or private (peer) entities.

Environment of Care: Secure medication carts at all times. Ensure all staff on the
locked mental health unit and Multidisciplinary Safety Inspection Team members
receive the required training. Require that locked mental health unit panic alarm testing
documentation includes VA Police response times. Ensure that the locked mental
health unit’s seclusion room door opens towards the hallway and that patients in
seclusion have privacy while using the bathroom.

Nurse Staffing: Ensure that annual staffing plan reassessments are completed timely
and that members of the identified unit-based expert panel receive the required training
prior to the next annual staffing plan reassessment.

Pressure Ulcer Prevention and Management: Ensure that the newly established
interprofessional pressure ulcer committee continues to meet and that the committee
provides oversight of the pressure ulcer prevention program. Accurately document
pressure ulcer location, stage, risk scale score, and date acquired for all patients with



VA OIG Office of Healthcare Inspections                                                          i
                                          CAP Review of the Atlanta VA Medical Center, Decatur, GA


pressure ulcers. Perform and document daily risk scales for patients at risk for or with
pressure ulcers, and document daily skin inspections for all hospitalized patients
identified as not being at risk for pressure ulcers. Ensure all patients discharged with
pressure ulcers have wound care follow-up plans and receive dressing supplies.
Provide and document pressure ulcer education to patients at risk for and with pressure
ulcers and/or their caregivers.

Community Living Center Resident Independence and Dignity: Ensure all employees
who perform restorative nursing services receive training on and competency
assessment for range of motion and resident transfers.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 20–27, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                         JOHN D. DAIGH, JR., M.D. 

                                                        Assistant Inspector General for 

                                                           Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                          ii
                                          CAP Review of the Atlanta VA Medical Center, Decatur, GA



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

   	 CLC Resident Independence and Dignity

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012, FY 2013, and FY 2014 through
November 22, 2013, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the


VA OIG Office of Healthcare Inspections                                                         1
                                          CAP Review of the Atlanta VA Medical Center, Decatur, GA


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Atlanta VA Medical Center, Decatur, Georgia, Report
No. 08-03089-116, April 27, 2009). We made a repeat recommendation in QM.

During this review, we presented crime awareness briefings for 158 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
291 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Medication Management for Elderly Veterans
The facility is one of five VA medical centers participating in the quality improvement
initiative EQUiPPED. The aim of the initiative is to avoid the use of potentially
inappropriate medications in veterans age 65 or older at the time of ED discharge. ED
providers receive electronic decision support via geriatric pharmacy order sets and links
to online clinical resources, tools, and education. ED providers also receive individual
feedback and peer benchmarking. Baseline EQUiPPED data for the facility in
May 2012 showed that 14.7 percent of all medications prescribed to targeted veterans
were potentially inappropriate. In September 2013 (post-EQUiPPED interventions), the
percentage of prescribed potentially inappropriate medications decreased to
5.45 percent. The use of appropriate medications by staff providers was nearly three
times more likely after the initiative.

Access to Dermatology Care
The facility’s efforts to improve access to dermatology care began in 2012 with 2 related
efforts (1) receipt of national funding to develop a dermatology mini-residency program
and (2) initiation of teledermatology. The goal was to educate primary care providers to
manage simple dermatological problems and to educate treatment team members on
the use of teledermatology technology. For the period February 1 to March 31, 2013,
the facility recognized a 39 percent decrease in face-to-face new consults to
Dermatology Service and a 10 percent decrease in face-to-face follow-up visits when
compared to the same timeframe in 2012. Access has improved, and the next available
new patient appointment is now within 2 weeks. Currently, the teledermatology
program sees approximately 200 consults per month, with an average turnaround time
of less than 24 hours for image reading.



VA OIG Office of Healthcare Inspections                                                         2
                                                  CAP Review of the Atlanta VA Medical Center, Decatur, GA



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                      Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
 X     The protected peer review process met            Six months of PRC meeting minutes reviewed:
       selected requirements:                            None of the 20 actions expected to be
        The PRC was chaired by the Chief of Staff         completed were reported to the PRC. This
          and included membership by applicable            was a repeat finding from the previous CAP
          service chiefs.                                  review.
        Actions from individual peer reviews were      Twelve months of MEC meeting minutes
          completed and reported to the PRC.            reviewed:
        The PRC submitted quarterly summary             None of the quarterly summary reports were
          reports to the MEC.                              documented as received by the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
       Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                 3
                                                    CAP Review of the Atlanta VA Medical Center, Decatur, GA


NM               Areas Reviewed (continued)                                  Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 X     The process to review resuscitation events         Ten months of Cardiopulmonary Resuscitation
       met selected requirements:                         Review Committee meeting minutes reviewed:
        An interdisciplinary committee was                There was no evidence that the committee
          responsible for reviewing episodes of care        reviewed each episode.
          where resuscitation was attempted.               There was no evidence that data were
        Resuscitation event reviews included               collected.
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 X     The surgical review process met selected            The Surgical Work Group was not chartered
       requirements:                                        until August 2013. As a result, there was no
        An interdisciplinary committee with                evidence that required monthly and quarterly
          appropriate leadership and clinical               performance data elements, such as local
          membership met monthly to review surgical         performance data and National Surgical
          processes and outcomes.                           Office reports, were reviewed.
        All surgical deaths were reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
 X     The policy for scanning non-VA care                 The scanning policy did not include how to
       documents met selected requirements.                 annotate a scanned image to identify that it
                                                            has been scanned.




VA OIG Office of Healthcare Inspections                                                                    4
                                                         CAP Review of the Atlanta VA Medical Center, Decatur, GA


NM             Areas Reviewed (continued)                                          Findings
 X     The process to review blood/transfusions              Eight months of Blood Usage Review
       usage met selected requirements:                      Committee meeting minutes reviewed:
        A committee with appropriate clinical                A clinical representative for Anesthesia
         membership met at least quarterly to review            Service was not appointed until
         blood/transfusions usage.                              October 2013.
        Additional data elements were routinely              The review process did not include the results
         reviewed.                                              of proficiency testing, the results of peer
                                                                reviews when transfusions did not meet
                                                                criteria, or the results of inspections by
                                                                government or private (peer) entities.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that actions from peer reviews
are completed and reported to the PRC.

2. We recommended that the PRC submit quarterly summary reports to the MEC and that the
MEC document its discussion of the reports.

3. We recommended that processes be strengthened to ensure that the Cardiopulmonary
Resuscitation Committee reviews each code episode and collects code data.

4. We recommended that the Surgical Work Group meet monthly and document its review of
required performance data elements and National Surgical Office reports.

5. We recommended that the quality control policy for scanning include how to annotate a
scanned image to identify that it has been scanned.

6. We recommended that processes be strengthened to ensure that the Anesthesia Service
representative attends Blood Usage Committee meetings and that the blood/transfusion usage
review process includes the results of proficiency testing, the results of peer reviews when
transfusions did not meet criteria, and the results of inspections by government or private (peer)
entities.




VA OIG Office of Healthcare Inspections                                                                        5
                                                  CAP Review of the Atlanta VA Medical Center, Decatur, GA


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected 10 areas (medicine, surgery, the medical intensive care unit, the ED, CLC-2, the
primary care clinic, the sleep clinic, x-ray, fluoroscopy, and acute MH). Additionally, we
reviewed relevant documents, conversed with key employees and managers, and reviewed
29 employee training records (10 radiology employees, 10 acute MH unit employees, 4 MSIT
members, and 5 occasional acute MH unit employees). The table below shows the areas
reviewed for this topic. The areas marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM            Areas Reviewed for General EOC                               Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
 X     Medication safety and security requirements       Although the medication carts appeared to be
       were met.                                          locked in the five locations inspected that had
                                                          carts, not all medication drawers were
                                                          secured due to faulty locking mechanisms.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Radiology
       The facility had a Radiation Safety Committee,
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.




VA OIG Office of Healthcare Inspections                                                                     6
                                                     CAP Review of the Atlanta VA Medical Center, Decatur, GA


NM      Areas Reviewed for Radiology (continued)                              Findings
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
       The facility had a policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       within the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
       MH EOC inspections were conducted every
       6 months.
       Corrective actions were taken for
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.
 X     MH unit staff, MSIT members, and occasional          Two of the locked MH unit staff, four MSIT
       unit workers received training on how to              members, and all five occasional locked MH
       identify and correct environmental hazards,           unit staff had not completed training on how
       content and proper use of the MH EOC                  to identify and correct environmental hazards,
       Checklist, and VA’s National Center for               the proper use of the MH EOC Checklist, and
       Patient Safety study of suicide on psychiatric        VA’s National Center for Patient Safety study
       units.                                                of suicide on psychiatric units.
 X     The locked MH unit(s) was/were in                    Although panic alarm testing was conducted,
       compliance with MH EOC Checklist safety               VA Police response times were not
       requirements or an abatement plan was in              documented for the past 6 months.
       place.                                               The seclusion room door did not open toward
                                                             the hallway.


VA OIG Office of Healthcare Inspections                                                                    7
                                               CAP Review of the Atlanta VA Medical Center, Decatur, GA


NM      Areas Reviewed for Acute MH (continued)                        Findings
 X     The facility complied with any additional    VHA policy reviewed:
       elements required by VHA, local policy, or    Patients in seclusion did not have privacy
       other regulatory standards.                    when using the bathroom.

Recommendations

7. We recommended that processes be strengthened to ensure that medication carts are
secured at all times and that compliance be monitored.

8. We recommended that processes be strengthened to ensure that all locked MH unit staff,
MSIT members, and occasional locked MH unit workers receive training on how to identify and
correct environmental hazards, the proper use of the MH EOC Checklist, and VA’s National
Center for Patient Safety study of suicide on psychiatric units and that compliance be monitored.

9. We recommended that processes be strengthened to ensure that locked MH unit panic
alarm testing documentation includes VA Police response times.

10. We recommended that the locked MH unit’s seclusion room door open towards the hallway
and that patients in seclusion have privacy while using the bathroom.




VA OIG Office of Healthcare Inspections                                                              8
                                                    CAP Review of the Atlanta VA Medical Center, Decatur, GA


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed                   with key managers and employees.
Additionally, we reviewed the EHRs of 35 randomly             selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the        areas reviewed for this topic. Any items
that did not apply to this facility are marked NA. The        facility generally met requirements. We
made no recommendations.

NM                      Areas Reviewed                                       Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   9
                                                   CAP Review of the Atlanta VA Medical Center, Decatur, GA


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 34 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                      Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
       Clinicians provided discharge instructions to
       patients and/or caregivers and validated their
       understanding.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 10
                                                    CAP Review of the Atlanta VA Medical Center, Decatur, GA


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on three inpatient units (acute medical/surgical, long-term care, and MH).5

We reviewed facility and unit-based expert panel documents and five training files, and we
conversed with key employees. Additionally, we reviewed the actual nursing hours per patient
day for 3 randomly selected units—acute medical/surgical unit 10, CLC-2, and MH unit 4—for
50 randomly selected days between October 1, 2012, and September 30, 2013. The table
below shows the areas reviewed for this topic. The areas marked as NM did not meet
applicable requirements and needed improvement. Any items that did not apply to this facility
are marked NA.

NM                      Areas Reviewed                                     Findings
 X     The facility either implemented or reassessed      More than 15 months passed between initial
       a nurse staffing methodology within the             implementation and the annual
       expected timeframes.                                reassessment.
       The facility expert panel followed the required
       processes and included the required
       members.
       The unit-based expert panels followed the
       required processes and included the required
       members.
 X     Members of the expert panels completed the         None of the five members of CLC-2’s
       required training.                                  unit-based expert panel had completed the
                                                           required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

11. We recommended that processes be strengthened to ensure that nursing managers
complete annual staffing plan reassessments timely.

12. We recommended that all members of CLC-2’s unit-based expert panel receive the required
training prior to the next annual staffing plan reassessment.




VA OIG Office of Healthcare Inspections                                                                  11
                                                    CAP Review of the Atlanta VA Medical Center, Decatur, GA


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 21 EHRs of patients with pressure ulcers (6 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
5 patients with pressure ulcers at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected three patient rooms. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                        Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
 X     The facility had an interprofessional pressure    The interprofessional pressure ulcer
       ulcer committee.                                   committee was not established until
                                                          October 2013.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
 X     Staff were generally consistent in                In 13 of the 21 EHRs, documentation of
       documenting location, stage, risk scale score,     location, stage, risk scale score, and/or date
       and date acquired.                                 acquired varied.
 X     Required activities were performed for            Eight of the applicable 17 EHRs did not
       patients determined to be at risk for pressure      contain consistent documentation that staff
       ulcers and for patients with pressure ulcers.       performed daily risk scales.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
 X     If the patient’s pressure ulcer was not healed    Two of the applicable seven EHRs did not
       at discharge, a wound care follow-up plan was      contain evidence of wound care follow-up
       documented, and the patient was provided           plans at discharge or evidence of patient
       appropriate dressing supplies.                     receipt of dressing supplies prior to
                                                          discharge.




VA OIG Office of Healthcare Inspections                                                                    12
                                                   CAP Review of the Atlanta VA Medical Center, Decatur, GA


NM             Areas Reviewed (continued)                                   Findings
 X     The facility defined requirements for patient    Pressure ulcer patient and caregiver education
       and caregiver pressure ulcer education, and      requirements reviewed:
       education on pressure ulcer prevention and        For 8 of the applicable 14 patients at risk
       development was provided to those at risk for       for/with a pressure ulcer, EHRs did not
       and with pressure ulcers and/or their               contain evidence that education was
       caregivers.                                         provided.
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

13. We recommended that the newly established interprofessional pressure ulcer committee
continue to meet and that the committee provide oversight of the facility’s pressure ulcer
prevention program.

14. We recommended that processes be strengthened to ensure that acute care staff
accurately document location, stage, risk scale score, and date pressure ulcer acquired for all
patients with pressure ulcers and that compliance be monitored.

15. We recommended that processes be strengthened to ensure that acute care staff perform
and document daily risk scales for patients at risk for or with pressure ulcers and that
compliance be monitored.

16. We recommended that processes be strengthened to ensure that acute care staff perform
and document daily skin inspections for all hospitalized patients identified as not being at risk for
pressure ulcers and that compliance be monitored.

17. We recommended that processes be strengthened to ensure that all patients discharged
with pressure ulcers have wound care follow-up plans and receive dressing supplies prior to
being discharged and that compliance be monitored.

18. We recommended that processes be strengthened to ensure that acute care staff provide
and document pressure ulcer education to patients at risk for and with pressure ulcers and/or
their caregivers and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                  13
                                                     CAP Review of the Atlanta VA Medical Center, Decatur, GA


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.7

We reviewed 11 EHRs of residents (10 residents receiving restorative nursing services and
1 resident not receiving restorative nursing services but a candidate for services). We also
observed 2 meal periods, reviewed 10 employee training/competency records and other
relevant documents, and conversed with key employees. The table below shows the areas
reviewed for this topic. The area marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                        Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive ROM, bed mobility, transfer, and
       walking activities, according to clinician orders
       and residents’ care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
 X     Training and competency assessments were             Eight employee training records did not
       completed for staff who performed restorative         contain evidence of ROM training, and none
       nursing services.                                     contained evidence of transfer training.
                                                            Two employee competency records did not
                                                             contain evidence of ROM competencies, and
                                                             none contained evidence of transfer
                                                             competencies.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   14
                                                 CAP Review of the Atlanta VA Medical Center, Decatur, GA


NM         Areas Reviewed for Assistive Eating                             Findings
                Devices and Dining Service
 NA    Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

19. We recommended that processes be strengthened to ensure that all employees who
perform restorative nursing services receive training on and competency assessment for ROM
and resident transfers.




VA OIG Office of Healthcare Inspections                                                               15
                                                    CAP Review of the Atlanta VA Medical Center, Decatur, GA
                                                                                                 Appendix A


                  Facility Profile (Atlanta/508) FY 2014 through
                                   January 2014a
Type of Organization                                                         Tertiary
Complexity Level                                                             1a-High complexity
Affiliated/Non-Affiliated                                                    Affiliated
Total Medical Care Budget in Millions
(September 2013)                                                             $600.3
Number of:
    Unique Patients                                                         66,524
    Outpatient Visits                                                       323,345
    Unique Employeesb                                                       3,087
Type and Number of Operating Beds
(December 2013):
    Hospital                                                                182
    CLC                                                                     77
    MH                                                                      40
Average Daily Census (November 2013):
    Hospital                                                                133
    CLC                                                                     62
    MH                                                                      28.8
Number of Community Based Outpatient Clinics                                 8
Location(s)/Station Number(s)                                                East Point/508GA
                                                                             NE Georgia-Oakwood/508GE
                                                                             Austell/508GF
                                                                             Stockbridge/508GG
                                                                             Lawrenceville/508GH
                                                                             Newman/508GI
                                                                             Blairsville/508GJ
                                                                             Carrollton/508GK
VISN Number                                                                  7




a
    All data is for FY 2014 through January 2014 except where noted.

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                  16
                                                                        CAP Review of the Atlanta VA Medical Center, Decatur, GA
                                                                                                                     Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                      17
                                                            CAP Review of the Atlanta VA Medical Center, Decatur, GA



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                          18
                                                                                                             CAP Review of the Atlanta VA Medical Center, Decatur, GA


                                                                         Metric Definitions
 Measure                       Definition                                                                            Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)     A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                               A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                            A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                  A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                           A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)        A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                         A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                     A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                  A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                        A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                  A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)     A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)              A higher value is better than a lower value
 PSI                           Patient safety indicator                                                              A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                      A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                        A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction               A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                  A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                 A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction             A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                               A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                   A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                        A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)            A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                            19
                                          CAP Review of the Atlanta VA Medical Center, Decatur, GA
                                                                                       Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:       February 21, 2014

          From:        Director, VA Southeast Network (10N7)

       Subject:        CAP Review of the Atlanta VA Medical Center, Decatur,
                       GA

             To:       Director, Atlanta Office of Healthcare Inspections (54AT)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I concur with the Atlanta VA Medical Center’s responses and action
       plans as detailed within this report. VISN 7 will provide oversight and
       guidance, assuring that all improvements are completed and sustained.

       2. If you have any questions related to this response, please contact
       Dr. Robin Hindsman, QMO, at 678-924-5723.




VA OIG Office of Healthcare Inspections                                                        20
                                          CAP Review of the Atlanta VA Medical Center, Decatur, GA
                                                                                       Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:       February 21, 2014

          From:        Director, Atlanta VA Medical Center (508/00)

       Subject:        CAP Review of the Atlanta VA Medical Center, Decatur,
                       GA

             To:       Director, VA Southeast Network (10N7)

       1. I concur with all of the findings and recommendations of the Office of
       Inspector General Combined Assessment Program Review of the Atlanta
       VA Medical Center, Decatur, GA.

       2. Thank you for the opportunity to review the draft report. Attached are
       the facility actions taken as a result of these findings.




VA OIG Office of Healthcare Inspections                                                        21
                                          CAP Review of the Atlanta VA Medical Center, Decatur, GA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that

actions from peer reviews are completed and reported to the PRC. 


Concur


Target date for completion: Completed: December 10, 2013 


Facility response: A PRC issue tracking worksheet was implemented and has been 

included with the PRC minutes to track actions from peer reviews. 


Recommendation 2. We recommended that the PRC submit quarterly summary 

reports to the MEC and that the MEC document its discussion of the reports. 


Concur


Target date for completion: Completed: December 10, 2013


Facility response: The PRC quarterly summary has been added to the MEC reporting 

agenda to ensure descriptive documentation of minute discussion. 


Recommendation 3. We recommended that processes be strengthened to ensure that

the Cardiopulmonary Resuscitation Committee reviews each code episode and collects

code data. 


Concur


Target date for completion: February 28, 2014


Facility response: All CPR events are reviewed by Quality Management and identified

issues are reviewed by the CPR Committee. The process has been strengthened to
include reporting of aggregate data for all required elements reviewed for each
resuscitation event.

Recommendation 4. We recommended that the Surgical Work Group meet monthly
and document its review of required performance data elements and National Surgical
Office reports.

Concur

Target date for completion: Completed: January 21, 2014



VA OIG Office of Healthcare Inspections                                                        22
                                          CAP Review of the Atlanta VA Medical Center, Decatur, GA


Facility response: The longstanding OR Committee which met monthly transitioned to a
Surgical Work Group in August 2013. Review of required performance data elements
and National Surgical reports has been documented in minutes since transition to a
work group.

Recommendation 5. We recommended that the quality control policy for scanning
include how to annotate a scanned image to identify that it has been scanned.

Concur

Target date for completion: Completed: December 18, 2013

Facility response: The Medical Records policy for scanning has been revised to include
how to annotate a scanned image to identify that scanning has been completed.

Recommendation 6. We recommended that processes be strengthened to ensure that
the Anesthesia Service representative attends Blood Usage Committee meetings and
that the blood/transfusion usage review process includes the results of proficiency
testing, the results of peer reviews when transfusions did not meet criteria, and the
results of inspections by government or private (peer) entities.

Concur

Target date for completion: Completed: January 31, 2014

Facility response: A new committee member from anesthesiology has been added and
MCM 113-2 Blood Usage Review Committee has been revised to reflect membership
composition. As of September 2013, the Blood Usage Committee meets applicable
requirements to include documented review of proficiency testing results, peer reviews,
and external reviews.

Recommendation 7. We recommended that processes be strengthened to ensure that
medication carts are secured at all times and that compliance be monitored.

Concur

Target date for completion: December 31, 2014

Facility response: Nursing staff ensure medication carts are secured at all times. There
are medication carts that do not have functional locking mechanisms and those carts
are being repaired and/or replaced. Six carts have been received and an additional
26 carts are on order through a small business. The acquisition process is underway
for the purchase of the remaining required carts. In the interim, medication carts are
secured in a locked medication room unless in use. The BCMA Coordinator conducts
routine rounding in all inpatient areas to ensure and document compliance.




VA OIG Office of Healthcare Inspections                                                        23
                                          CAP Review of the Atlanta VA Medical Center, Decatur, GA


Recommendation 8. We recommended that processes be strengthened to ensure that
all locked MH unit staff, MSIT members, and occasional locked MH unit workers receive
training on how to identify and correct environmental hazards, the proper use of the MH
EOC Checklist, and VA’s National Center for Patient Safety study of suicide on
psychiatric units and that compliance be monitored.

Concur

Target date for completion: March 31, 2014

Facility response: Appropriate staff will complete the required training by
March 31, 2014. The training modules will be added to identified employee’s annual
training requirement which will generate an electronic notice to the employee and
employee’s supervisor prior to due date of this annual requirement.

Recommendation 9. We recommended that processes be strengthened to ensure that
locked MH unit panic alarm testing documentation includes VA Police response times.

Concur

Target date for completion: Completed: January 27, 2014

Facility response: Alarm testing documentation has been revised to include VA Police
response times.

Recommendation 10. We recommended that the locked MH unit’s seclusion room
door open towards the hallway and that patients in seclusion have privacy while using
the bathroom.

Concur

Target date for completion: April 30, 2014

Facility response: The existing inward swinging door in the seclusion room bathroom
will be replaced with a new door and frame without a view panel. The new door has
been ordered and will swing inward to maintain life safety egress clearances in the
corridor and be equipped with features that also allow it to swing out into the corridor for
emergency access.

Recommendation 11. We recommended that processes be strengthened to ensure
that nursing managers complete annual staffing plan reassessments timely.

Concur

Target date for completion: August 31, 2014




VA OIG Office of Healthcare Inspections                                                        24
                                          CAP Review of the Atlanta VA Medical Center, Decatur, GA


Facility response: To ensure timely completion of the annual staffing reassessment, Unit
Expert Panels will convene in June 2014. Recommendations are due to the Facility
Expert Panel by July 31, 2014. All inpatient units have been completed.

Recommendation 12. We recommended that all members of CLC-2’s unit-based
expert panel receive the required training prior to the next annual staffing plan
reassessment.

Concur

Target date for completion: May 31, 2014

Facility response: All unit-based expert panels will receive the required training by
May 31, 2014.

Recommendation 13. We recommended that the newly established interprofessional
pressure ulcer committee continue to meet and that the committee provide oversight of
the facility’s pressure ulcer prevention program.

Concur

Target date for completion: Completed: January 30, 2014

Facility response: The facility’s interprofessional Pressure Ulcer Committee provides
oversight to the facility’s pressure ulcer prevention program. The Pressure Ulcer
Committee aggregates and analyzes data from a standardized pressure ulcer
monitoring tool completed by Pressure Ulcer Champions. Discrepancy reports are sent
to unit managers designating areas of improvement opportunity.

Recommendation 14. We recommended that processes be strengthened to ensure
that acute care staff accurately document location, stage, risk scale score, and date
pressure ulcer acquired for all patients with pressure ulcers and that compliance be
monitored.

Concur

Target date for completion: April 30, 2014

Facility response: Pressure Ulcer Champions review nursing documentation to ensure
accuracy of pressure ulcer location, stage, risk scale score, and date pressure ulcer
acquired for all patients with pressure ulcers. Compliance is reported to the Acute Care
Associate Nurse Executive monthly and the Executive Committee of the Nursing Staff
quarterly.




VA OIG Office of Healthcare Inspections                                                        25
                                          CAP Review of the Atlanta VA Medical Center, Decatur, GA


Recommendation 15. We recommended that processes be strengthened to ensure
that acute care staff perform and document daily risk scales for patients at risk for or
with pressure ulcers and that compliance be monitored.

Concur

Target date for completion: April 30, 2014

Facility response: Pressure Ulcer Champions review nursing documentation to ensure
acute care staff perform and document daily risk scales for patients at risk for or with
pressure ulcers. Compliance is reported to the appropriate Acute Care Associate Nurse
Executive monthly and the Executive Committee of the Nursing Staff quarterly.

Recommendation 16. We recommended that processes be strengthened to ensure
that acute care staff perform and document daily skin inspections for all hospitalized
patients identified as not being at risk for pressure ulcers and that compliance be
monitored.

Concur

Target date for completion: April 30, 2014

Facility response: Pressure Ulcer Champions review nursing documentation to ensure
that acute care staff performs and document daily skin inspections for all hospitalized
patients identified as not being at risk for pressure ulcers. Compliance is reported to the
Acute Care Associate Nurse Executive monthly and the Executive Committee of the
Nursing Staff quarterly.

Recommendation 17. We recommended that processes be strengthened to ensure
that all patients discharged with pressure ulcers have wound care follow-up plans and
receive dressing supplies prior to being discharged and that compliance be monitored.

Concur

Target date for completion: April 30, 2014

Facility response: The Pressure Ulcer Team reviews discharge documentation for
evidence that all patients discharged with pressure ulcers have wound care follow-up
plans and receive dressing supplies prior to being discharged utilizing the Skin/Wound
Monitor. Compliance is reported to the appropriate Associate Nurse Executive monthly
and the Executive Committee of the Nursing Staff quarterly.




VA OIG Office of Healthcare Inspections                                                        26
                                          CAP Review of the Atlanta VA Medical Center, Decatur, GA


Recommendation 18. We recommended that processes be strengthened to ensure
that acute care staff provide and document pressure ulcer education to patients at risk
for and with pressure ulcers and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: April 30, 2014

Facility response: Pressure Ulcer Champions review nursing documentation monthly
utilizing the Skin/Wound Monitor for evidence that patients and/or family/caregiver
received pressure ulcer education for patients at risk for and with pressure ulcers.
Compliance will be reported to the Acute Care Associate Nurse Executive monthly and
to the Executive Committee of the Nursing Staff quarterly by the Quality Analyst of
Acute Care Services.

Recommendation 19. We recommended that processes be strengthened to ensure
that all employees who perform restorative nursing services receive training on and
competency assessment for ROM and resident transfers.

Concur

Target date for completion: February 28, 2014

Facility response: Training and competency assessments of range-of-motion (ROM)
and safe resident transfer for all staff will be provided and completed on
February 28, 2014.




VA OIG Office of Healthcare Inspections                                                        27
                                          CAP Review of the Atlanta VA Medical Center, Decatur, GA
                                                                                       Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Toni Woodard, BS, Team Leader
Contributors            Victoria Coates, LICSW, MBA
                        Lesa Gann, RN, LCSW
                        Cathleen King, MHA, CRRN
                        Joanne Wasko, LCSW
                        Tracy Brumfield, Special Agent, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Sheyla Desir, RN, MSN
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Gayle Karamanos, MS, PA-C
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        28
                                          CAP Review of the Atlanta VA Medical Center, Decatur, GA
                                                                                       Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Southeast Network (10N7)
Director, Atlanta VA Medical Center (508/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Saxby Chambliss, Johnny Isakson
U.S. House of Representatives: Paul C. Broun; Doug Collins; Phil Gingrey;
 Henry C. “Hank” Johnson, Jr.; John Lewis; Tom Price; Austin Scott; David Scott;
 Lynn A. Westmoreland; Robert Woodall


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        29
                                                    CAP Review of the Atlanta VA Medical Center, Decatur, GA
                                                                                                 Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
   Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
  References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
  References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
   July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
5
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.



VA OIG Office of Healthcare Inspections                                                                            30
                                               CAP Review of the Atlanta VA Medical Center, Decatur, GA



6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
7
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                    31
